Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


OBSERVATIONS NOTED DURING THE
    OIG REVIEW OF CMS’S
IMPLEMENTATION OF THE HEALTH
 INSURANCE EXCHANGE—DATA
        SERVICES HUB




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       August 2013
                                                      A-18-13-30070
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
August 2, 2013

TO:            Marilyn Tavenner
               Administrator
               Centers for Medicare & Medicaid Services

               Tony Trenkle
               Chief Information Officer
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Memorandum Report: Observations Noted During the OIG Review of CMS’s
               Implementation of the Health Insurance Exchange—Data Services Hub
               (A-18-13-30070)


This memorandum report provides the results of our review of the Centers for Medicare
& Medicaid Services’ (CMS) implementation of the Data Services Hub (Hub) from a security
perspective. To determine the status of the implementation of the Hub, we assessed the
information technology (IT) security controls that CMS is implementing for the Hub, adequacy
of the testing activities being performed during its development, and the coordination between
CMS and Federal and State agencies during the development of the Hub. A memorandum report
is the best vehicle to communicate the results of our performance audit work when observations,
not recommendations, are the key elements of our results.

SUMMARY

CMS is addressing and testing security controls of the Hub during the development process.
However, several critical tasks remain to be completed in a short period of time, such as the final
independent testing of the Hub’s security controls, remediating security vulnerabilities identified
during testing, and obtaining the security authorization decision for the Hub before opening the
exchanges. CMS’s current schedule is to complete all of its tasks by October 1, 2013, in time for
the expected initial open enrollment period.
Page 2 – Marilyn Tavenner, Tony Trenkle


BACKGROUND

States must establish health insurance exchanges by January 1, 2014, 1 and all health insurance
exchanges must provide an initial open enrollment period beginning October 1, 2013
(45 CFR § 155.410). Health insurance exchanges are State-based competitive marketplaces
where individuals and small businesses will be able to purchase private health insurance.
Exchanges will serve as a one-stop shop where individuals will get information about their health
insurance options, be assessed for eligibility (for, among other things, qualified health plans,
premium tax credits, and cost sharing reductions), and enroll in the health plan of their choice. A
State may elect to operate its own State-based exchange or partner with the Federal Government
to operate a State partnership exchange. If a State elects not to operate an exchange, the
Department of Health and Human Services will operate a Federally Facilitated Exchange. 2 For
the purposes of this report, “exchanges” refers to all three types of health insurance exchanges.

The Hub is intended to support the exchanges by providing a single point where exchanges may
access data from different sources, primarily Federal agencies. It is important to note that the
Hub does not store data. Rather it acts as a conduit for exchanges to access the data from where
they are originally stored. The functions of the Hub will include facilitating the access of data by
exchanges; enabling verification of coverage eligibility; providing a central point for the Internal
Revenue Service (IRS) when it asks for coverage information; providing data for oversight of the
exchanges; providing data for paying insurers; and providing data for use in Web portals for
consumers.

Effective security controls are necessary to protect the confidentiality, integrity, and
availability of a system and its information. The National Institute of Standards and
Technology (NIST) developed information security standards and guidelines, including
minimum requirements for Federal information systems. CMS is required to follow the NIST
security standards and guidelines in securing the Hub. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Our primary audit objective was to determine CMS’s current progress in implementing security
requirements for the Hub. We evaluated the adequacy of the development and testing of the Hub
from a security perspective. We did not review the functionality of the Hub.




1
 The Patient Protection and Affordable Care Act § 1311(b) (P.L. No. 111-148) and the Health Care Reconciliation
Act of 2010 (P.L. No. 111-152), collectively known as the Affordable Care Act (ACA).
2
  The Center for Consumer Information and Insurance Oversight Web site has further information on the health
insurance exchanges: http://www.cms.gov/CCIIO/Programs-and-Initiatives/Health-Insurance-Marketplaces.
Accessed on July 9, 2013.
3
 NIST’s security standards assist Federal agencies in implementing the requirements under the Federal Information
Security Management Act of 2002, 44 U.S.C. §§ 3541, et seq.
Page 3 – Marilyn Tavenner, Tony Trenkle


To accomplish our objectives, we:

   •   reviewed documentation, System Development Life Cycle artifacts, and CMS project
       schedules and timelines (including milestones established by CMS) as of March and
       May 2013 (the dates of CMS’s two project schedules) to track the activities that need to
       be completed before the implementation of the Hub;
   •   interviewed CMS employees and contractors;
   •   interviewed personnel from key Federal agencies working with CMS during the
       development of the Hub; and
   •   reviewed CMS’s security testing results.

We performed our fieldwork substantially from March through May 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

RESULTS

At the time of our review, CMS and its contractors were continuing to develop the Hub and work
with its Federal and State partners in testing the Hub to ensure its readiness in time for the initial
open enrollment to begin on October 1, 2013. We made the following observations on security
controls, security testing, and coordination at the time of our fieldwork.

Assessment of Security Controls

According to NIST security standards, every Federal information system must obtain a security
authorization before the system goes into production. The security authorization is obtained
from a senior management official or executive with the authority to formally assume
responsibility for operating an information system at an acceptable level of risk to agency
operations.

The security authorization package must include a system security plan (SSP), information
security risk assessment (RA), and security control assessment (SCA) report. The security
authorization package provides important information about risks of the information system,
security controls necessary to mitigate those risks, and results of security control testing to
ensure that the risks have been properly mitigated. Therefore, these documents must be
completed before the security authorization decision can be made by the authorizing official.
The authorizing official may grant the security authorization with the knowledge that there are
still risks that have not been fully addressed at the time of the authorization.
Page 4 – Marilyn Tavenner, Tony Trenkle


CMS incorporated the elements required for adequate security into the draft Hub SSP. The SSP
provides an overview of the security requirements of the system and describes the controls in
place or planned (e.g., access controls, identification and authentication) for meeting those
requirements and delineates the responsibilities and behavior expected of all individuals who
access the system. The information security Hub RA was being drafted during our fieldwork.
The RA should identify risks to the operations (including mission, functions, image, or
reputation), agency assets, and individuals by determining the probability of occurrence, the
resulting impact, and additional security controls that would mitigate this impact. However, the
CMS contractor did not expect to provide finalized security documents, including the SSP and
RA, to CMS for its review until July 15, 2013. The original dates listed in CMS’s March and
May 2013 schedules for the contractor to submit the final security documents were May 6, 2013,
and July 1, 2013, respectively. Because the documents were still drafts, we could not assess
CMS’s efforts to identify security controls and system risks for the Hub and implement
safeguards and controls to mitigate identified risks.

According to CMS’s current timeline, the security authorization decision by the authorizing
official, the CMS Chief Information Officer (CIO), is expected on September 30, 2013; the
March 2013 schedule reported the date as September 4, 2013. If there are additional delays in
completing the security authorization package, the CMS CIO may not have a full assessment of
system risks and security controls needed for the security authorization decision by the initial
opening enrollment period expected to begin on October 1, 2013.

Adequacy of Security Testing

CMS and its contractors are performing security testing throughout the Hub’s development,
including vulnerability assessments of Hub services. CMS is logging and tracking defects and
vulnerabilities throughout the development process and correcting and retesting Hub services to
ensure that vulnerabilities are remediated.

An SCA of the Hub must be performed by an independent testing organization before the
security authorization is granted. 4 The SCA determines the extent to which the controls are
implemented correctly, operating as intended, and producing the desired outcome of meeting the
security requirements for the information system. The goal of the SCA test plan is to explain
clearly the information the testing organization expects to obtain prior to the SCA, the areas that
will be examined, and the proposed scheduled activities expected to be performed during the
SCA. According to CMS’s March 2013 schedule, the SCA test plan was scheduled to be
provided to CMS for its review on May 13, 2013, and the SCA was scheduled to be performed
between June 3 and 7, 2013. However, in the May 2013 schedule, the SCA test plan due date
was moved to July 15, 2013, and the SCA is now scheduled to be performed between
August 5 and 16, 2013. CMS stated that the SCA was moved so that performance stress testing
of the Hub could be finished before the SCA and any vulnerabilities identified during the stress


4
 NIST Special Publication 800-37, Guide for Applying the Risk Management Framework to Federal Information
Systems, Revision 1.
Page 5 – Marilyn Tavenner, Tony Trenkle


testing could be remediated. Otherwise, CMS might need to perform an additional SCA after the
remediation was complete.

CMS has 3 weeks between the receipt of the SCA test plan and the start of the SCA for CMS to
make changes to the plan and for the independent testing organization to adjust the plan. CMS
must ensure that all devices in the Hub environment, including all firewalls and servers, are
analyzed during the SCA. In addition, the draft report with the results of the SCA is not due
from the contractor performing the SCA until September 9, 2013, and the final report is not due
until September 20, 2013. We could not assess planned testing or whether vulnerabilities
identified by the testing would be mitigated because the SCA test plan had not been provided and
the SCA had not been completed at the time of our review. If there are additional delays in
completing the SCA test plan and performing the SCA, the authorizing official may not have the
full assessment of implemented security controls needed for the security authorization decision
by the initial opening enrollment period expected to begin on October 1, 2013.

See the table for a summary of the key security dates.

                                Table: Key Hub Security Due Dates
                                                Date Due (per                 Date Due (per
         Security Document                   March 2013 schedule)           May 2013 schedule)
         Final SSP and RA                        May 6, 2013                    July 1, 2013*
         SCA Test Plan                            May 13, 2013                  July 15, 2013
         SCA                                      June 3-7, 2013             August 5-16, 2013
         Draft SCA Report                         June 28, 2013              September 9, 2013
         Final SCA Report                          July 15, 2013             September 20, 2013
         Security Authorization
                                               September 4, 2013             September 30, 2013
         Decision
        * On July 1, 2013, CMS stated that the new date for the SSP and RA is July 15, 2013.

Coordination Among CMS and Its Federal and State Partners

CMS is coordinating with its Federal and State partners during the development and testing of
the Hub, in part to ensure that security measures are implemented by all stakeholders. The
Federal partners are the IRS, Social Security Administration (SSA), Department of Homeland
Security (DHS), Veterans Health Administration (VHA), Department of Defense (DOD), Office
of Personnel Management (OPM), and Peace Corps.

CMS developed a testing approach for interagency testing and has developed test plans. CMS is
in the process of executing its test plans, which include testing for secure communications
between CMS and its Federal and State partners and performance stress testing of the Hub.
Page 6 – Marilyn Tavenner, Tony Trenkle


CMS also developed security-related documents related to the Hub and the exchanges. CMS
developed Interface Control Documents (ICD) with all of its Federal partners. The ICDs should
be established during the development of new systems. The ICDs provide a common, standard
technical specification for transferring ACA-related information between CMS (the Hub) and its
Federal partners. The ICDs establish standard rules, requirements, and policies (including
security-related policies) with which the development and implementation of the interfaces
between CMS and its Federal partner must comply. CMS and its Federal partners collaborated
in the development of the ICDs and signed the ICDs in May 2013.

Federal policy requires agencies to develop Interconnection Security Agreements (ISA) for
Federal information systems and networks that share or exchange information with external
information systems and networks. Specifically, Office of Management and Budget Circular
A-130, Appendix III, requires agencies to obtain written management authorization before
connecting their IT systems to other systems. The written authorization should define the rules
of behavior and controls that must be maintained for the system interconnection. The Master
ISA describes the systems’ environment, network architecture, and the overall approach for
safeguarding the confidentiality, integrity, and availability of shared data and system interfaces.
In addition, the Master ISA contains information on CMS information security policy and the
roles and responsibilities pertaining to the maintenance of the security of ACA systems.

CMS completed a preliminary review of the Master ISA between CMS and the developer of the
Hub on April 2, 2013, and the Associate ISAs on May 15, 2013. Each of the Federal partners
will provide similar information pertaining to the partner agency in the Associate ISAs and
signed by the Federal partner authorized official. The final review of the ISAs for all Federal
partners is scheduled to be completed by September 3, 2013 and the CMS CIO is scheduled to
grant the authority to connect to the Hub by September 30, 2013. In addition, CMS has
developed a non-Federal ISA for third parties and the States.

A service level agreement (SLA) is a negotiated agreement between a service provider and the
customer that defines services, priorities, responsibilities, guarantees, and warranties by
specifying levels of availability, serviceability, performance, operation, or other service
attributes. A SLA is needed between CMS and each of its Federal partners to establish agreed-
upon services and availability, including response time and days and hours of availability of the
Hub and the Federal partner’s ACA systems. According to CMS’s project schedule, the SLA
with IRS was completed on March 15, 2013; the SLA with DHS is expected to be signed by
July 26, 2013; and the SLA with SSA is expected to be signed by September 27, 2013. The
SLAs with the remaining Federal partners (VHA, DOD, OPM, Peace Corps) are expected to be
signed by September 20, 2013. The SLAs should be approved by all parties before October 1,
2013.

SUMMARY OF OBSERVATIONS

This memorandum report informs stakeholders of the status of steps CMS is taking to ensure that
there are adequate security measures for the Hub. CMS is working with very tight deadlines to
ensure that security measures for the Hub are assessed, tested, and implemented by the expected
Page 7 – Marilyn Tavenner, Tony Trenkle


initial open enrollment date of October 1, 2013. If there are additional delays in completing the
security assessment and testing, the CMS CIO may have limited information on the security risks
and controls when granting the security authorization of the Hub.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its comments on our draft report, CMS stated that it is confident that the Hub will be
operationally secure and it will have a security authorization before October 1, 2013. CMS also
provided technical comments, which we addressed as appropriate. We have included CMS’s
comments in the Appendix.
  APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




Office of Inspector General Note—Technical comments in the auditee’s response to the draft
have been omitted from the final report and all appropriate changes have been made.
